IN THE SUPREME COURT OF THE UNITED STATES
WEST VENTURES L.P., FKA SLEIMAN VETURES, L.P.,
ET AL.
Petitioner
vs.

No:

20-1160

COMMISSIONER OF INTERNAL REVENUE
WAIVER
The Government hereby waives its right to file a response to the petition in this case,
unless requested to do so by the Court.

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
March 15, 2021
cc:
SUSAN ELIZABETH SEABROOK
WINSTON & STRAWN LLP
1901 L STREET, NW
WASHINGTON, DC 20036-3056

